Appendix
Table of Contents of Appendix
Appendix A: Decision of CA CD District Court
Appendix B: Decision of Court of Federal Claims
Appendix C: Decision of Federal Circuit Court
Appendix D: Decision of Mass. District Court
Appendix E: Mass. Distr. Denies Reconsideration
Appendix F: Decision of First Circuit Court

27
28
32

34
36
36

Appendix A: Decision of CA CD District Court
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
JOHN S. BARTH, Plaintiff,
v.
PLAYSTER CORPORATION, et al„ Defendants.
Case No. CV 17-0274 FMO (JCx)
ORDER OF DISMISSAL
Plaintiff filed his complaint on January 12, 2017. By order dated April 4,
2017, plaintiff was ordered to show cause, on or before April 12, 2017, why this
action should not be dismissed for plaintiffs failure to complete service of the
summons and complaint as required by Rule 4(m) of the Federal Rules of Civil
Procedure. (See Dkt. 24, Court’s Order of April 4, 2017). Plaintiff was admonished
that “[f]ailure to file a timely response to th[e] Order to Show Cause may result in
the action being dismissed for lack of prosecution and for failure to comply with the
orders of the court, pursuant to Local Rule 41.” (Id.). As of the date of this Order
plaintiff has not responded to the Order to Show Cause nor filed proofs of service of
summons and complaint on any defendant.
Rule 4(m) of the Federal Rules of Civil Procedure provides that a court, on its
own initiative, “must dismiss the action without prejudice” if service is not effected
“within 90 days after the complaint is filed [.]” In addition, a district court may
dismiss an action for failure to prosecute or to comply with court orders. Fed. R. Civ.
P. 41(b); Link v. Wabash Railroad Co., 370 U.S. 626, 629-30, 82 S.Ct. 1386 (1962)
(authority to dismiss for failure to prosecute necessary to avoid undue delay in
disposing of cases and congestion in court calendars); Ferdik v. Bonzelet, 963 F.2d
1258, 1260 (9th Cir.), cert, denied, 506 U.S. 915, 113 S.Ct. 321 (1992) (district court
may dismiss action for failure to comply with any court order). Dismissal, however,

27

is a severe penalty and should be imposed only after consideration of the relevant
factors in favor of and against this extreme remedy. Thompson v. Housing
Authority of Los Angeles, 782 F.2d 829, 831 (9th Cir.), cert, denied, 479 U.S. 829,
107 S.Ct. 112 (1986). These factors include: (1) the public’s interest in expeditious
resolution of litigation; (2) the court’s need to manage its docket; (3) the risk of
prejudice to the defendants; (4) the public policy favoring disposition of cases on
their merits; and (5) the availability of less drastic sanctions. Id.; Henderson v.
Duncan, 779 F.2d 1421, 1423 (9th Cir. 1986).
Pursuant to Rules 4(m) and 41(b) and the Court’s inherent power to achieve
the orderly and expeditious disposition of cases, Link, 370 U.S. at 629-30, 82 S.Ct.
at 1388, and in light of the factors outlined in Henderson, supra, dismissal of this
action without prejudice for failure to effect service within the specified time and
comply with the Court’s Order to Show Cause issued on April 4, 2017, is
appropriate.
Based on the foregoing, IT IS ORDERED that judgment be entered
dismissing this action, without prejudice, for failure to effect service and comply
with the orders of this Court.
Dated this 27th day of April, 2017.
/s/
Fernando M. Olguin
United States District Judge

Appendix B: Decision of Court of Federal Claims
One the most clearly unconstitutional decisions ever to issue from the
federal judiciary.
U.S. COURT OF FEDERAL CLAIMS
No. 17-1037 L
JOHN S. BARTH, Plaintiff
v.
UNITED STATES, Defendant
Motion to Dismiss; Lack of Subject Matter Jurisdiction; RCFC 12(bXl); RCFC
l2(bX6);RcFc 12(h)(3).
John S. Barth, Springvale, ME, pro se.
Aaron E. Woodward, Trial Attorney, with whom were Chad A. Readier, Acting
Assistant Attorney General, Robert E. Kirschman. Jr., Director, L. Misha Preheim,
Assistant Director, Commercial Litigation Branch, Civil Division, US DOJ,
Washington, DC, for defendant.

28

OPINION
CAMPBELL-SMITH, Judge.
Before the court is defendant's motion to dismiss plaintiff s amended
complaint, in which he alleges various constitutional and copyright violations. See
Am. Compl., EOF No. 10. Defendant moves to dismiss the first count of plaintiff s
complaint for failure to state a claim upon which relief can be granted, pursuant to
Rule 12(b)(6) of the Rules of the United States Court of Federal Claims (RCFC), and
contends that the court lacks jurisdiction to consider the second and third counts of
plaintiff s amended complaint, pursuant to RCFC 12(bXl). See Def.'s Mot. to
Dismiss, ECF No. 11. For the following reasons, defendant's motion to dismiss is
GRANTED and plaintiff s complaint is dismissed for lack of subject matter
jurisdiction.
L Background
Plaintiff filed a voluminous complaint in this case , primarily comprised of
allegations that various individuals and organizations violated his copyrights. See
ECF No. 10 at 17-21 (summarizing the second and third counts of the complaint).
Plaintiff names the government as a defendant only in the first count of the
complaint, stating as follows:
The defendant United States is sued only in its liability for compensation of
damages due to incidental taking of private property without just
compensation, and denial of property without due process or equal protection
of law. The United States became involved by the actions of a district judge
who refused to seal the case despite multiple clearly essential motions, or to
request federal discovery assistance, or to disqualify himself to permit a
judge with knowledge of internet racketeering to handle the case, and
published the unredacted documents on the court and Pacer websites,
thereby notifying the defendants and allowing them to destroy evidence and
move assets out of the country and beyond recovery by the Plaintiff and
others.
The said violations were done with full knowledge of the injury done, without
permission of the Plaintiff, and have caused injury to the Plaintiff in the loss
of his efforts of four years and his income from the sale of intellectual
property, and costs of prosecution, for which Plaintiff demands full
compensation.
Id. at 16 (emphasis in original). These allegations stem from the decisions issued by
the judge presiding over a case that plaintiff filed in the United States District
Court for the Central District of California. See Appx. B to Compl., ECF No. 1-9 at
1-431 (compiling selected documents in Barth v. Playster Corp., Case No. 2:17-cv0274).
II Legal Standards
29

Pursuant to the Tucker Act, the court has the limited jurisdiction to consider
"any claim against the United States founded either upon the Constitution, or any
Act of Congress or any regulation of an executive department, or upon any express
or implied contract with the United States, or for liquidated or unliquidated
damages in cases not
1 When filing his original complaint, plaintiff omitted several pages, see ECF No. 1,
and the court ordered him to file an amended complaint to correct the error, see
ECF No. 9. Plaintiff complied with the court's order and filed an amended
complaint, see ECF No. 10, but omitted the exhibits he attached to the original
complaint, which are referenced throughout the amended pleading. In order to
preserve the resources of both the parties and the court, the court will refer to the
exhibits as originally filed.
sounding in tort." 28 U.S.C. $ la91(a)(l) (2012). To invoke the court's jurisdiction,
plaintiffs must show that their claims are based upon the Constitution, a statute, or
a regulation that "can fairly be interpreted as mandating compensation by the
Federal Government for the damages sustained." United States v. Mitchell, 463
U.S. 206,216-17 ( 1983) (quoting United States v. Testan , 424 U.S. 392, 400
(1976)).
Plaintiffs bear the burden of establishing this court's subject matter
jurisdiction by a preponderance of the evidence. See Reynolds v. Army & Air Force
Exch. Serv., 846 F .2d 7 46,748 (Fed. Cir. 1988). In reviewing plaintiffs' allegations
in support of jurisdiction, the court must presume all undisputed facts are true and
construe all reasonable inferences in plaintiffs' favor. Scheuer v. Rhodes, 416 U.S.
232,236 (1974), abrogated on other grounds by Harlow v. Fitzgerald, 457 U.S. 800,
814-15 (1982); Reynolds, 846 F.2d at 747 (citations omitted). If, however, a motion
to dismiss "challenges the truth of the jurisdictional facts alleged in the complaint,
the . . . court may consider relevant evidence in order to resolve the factual dispute."
Id. at747. If the court determines that it lacks subject matter jurisdiction, it must
dismiss the complaint. See RCFC 12(hX3).
III. Analysis
A. Count I
In the first count of the complaint, plaintiff claims that the United States is
liable for damages he suffered as a result of a taking without just compensation,
and the denial of both due process and equal protection. See ECF No. 10 at 16.
Plaintiff s claims for relief are premised on allegations that a judge on the United
States District Court for the Central District of California violated these various
constitutional rights. Specifically, he asserts that the judge
refused to seal the case despite multiple clearly essential motions, or request
federal discovery assistance, or to disqualify himself to permit a judge with
knowledge of internet racketeering to handle the case, and published the
unredacted documents on the court and Pacer websites, thereby notifying the
30

defendants and allowing them to destroy evidence and move assets out of the
country and beyond recovery by the Plaintiff and others.
Id. See also id. at 32-37 (detailed allegations of the claims contained in this
summary paragraph). Plaintiff also complains that the judge improperly dismissed
the case for lack of prosecution. See id. at 3-4.
Defendant moves the court to dismiss this count of the complaint for failure
to state a claim, pursuant to RCFC 12(bX6). See ECF No. 11 at 1, 6-10. In the
court's view, however, dismissal pursuant to RCFC 12(bxl) and RCFC 12(h)(3) is
more appropriate.
"Binding precedent establishes that the Court of Federal Claims has no
jurisdiction to review the merits of a decision rendered by a federal district court."
Shinnecock Indian Nation v. United States,782 F.3d 1345,1352 (Fed. Cir. 2015)
(citations omitted).
This court "has no jurisdiction to review the decisions 'of district courts and cannot
entertain a taking[s]claim that requires the court to scrutinize the actions of
another tribunal.'" Id. (quoting Innovair Aviation Ltd. v. United States,632F.3d
1336, 1353 (Fed. Cir. 2011)). The allegations in plaintiff s complaint fall squarely
within this prohibition. The actions of which plaintiff complains relate entirely to
decisions made by the district court judge in the course of the litigation before him.
Because evaluating plaintiffs claims would require the court to review the decisions
made by the District Court judge, this court is without jurisdiction to consider them.
Despite the fact that defendant moved for dismissal of the first count on the
basis of RCFC 12(bX6), the court is compelled to dismiss the count for lack of
jurisdiction. Pursuant to RCFC 12(hX3), "[i]f the court determines at any time that
it lacks subject matter jurisdiction, the court must dismiss the action." Because the
court lacks the authority to review decisions made by the judge in the United States
District Court for the Central District of California, the first count of plaintiffs
complaint is dismissed.
B. Counts II and III
In the second and third counts of his complaint, plaintiff levels extensive
allegations against various individuals and organizations that are not the United
States. See ECF No. 10 at 1 7-2 I. Defendant moves the court to dismiss these
counts for lack of subject matter jurisdiction, pursuant to RCFC 12(bXl).
The court is plainly without jurisdiction to consider claims against private
individuals and organizations. See 8 U.S.C. $ la91(a)(l). "The United States is the
only proper defendant in this Court." Johnson v. United States, No. 17-353, 2017
WL 7596910, at *4 (Fed. Cl. Aug. 11,2017) (citing United States v. Sherwood, 312
U.S. 584, 588 (1941); Stephenson v. United States, 58 Fed. Cl. 186, 190 (2003);
Steward v. United States, 130 Fed. Cl. 172, 178 (2017) (It is . . . well-established
that this court does not have jurisdiction to hear any claims against defendants
other than the United States")).
"Claims for relief sought against any other party, including officers of the
United States government and any other individual, 'must be ignored as beyond the
jurisdiction of the court."' Matthews v. United States,72 Fed. Cl.274,279 (2006)
31

(quoting Sherwood, 312 U.S. at 588). In light of this well-established law, the court
finds it lacks subject matter jurisdiction to consider the second and third counts of
plaintiff s complaint.
IV. Conclusion
For the foregoing reasons, the court lacks jurisdiction to consider any of the
claims in plaintiffs complaint. Defendant's motion to dismiss, ECF No. 11, is
GRANTED, pursuant to RCFC 12(bl) and RCFC 12(h3). The clerk's office is dtuect to
ENTER
final judgment DISMISSING plaintiffs complaint without prejudice.
IT IS SO ORDERED.
PATRICIA E. CAMPBELL-SMITH
Judge

Appendix C: Decision of Federal Circuit Court
One the most clearly unconstitutional decisions to issue from the federal
judiciary, containing little but false statements of fact and law. Note the
heading “nonprecedential” meaning “we don’t do this to anyone of our
political tribe,” an admission of criminal collusion to deny Equal
Protection.
NOTE: This disposition is nonprecedential.
United States Court of Appeals for the Federal Circuit
JOHN S. BARTH,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2018-1776
Appeal from the United States Court of Federal
Claims in No. l:17-cv-01037-PEC, Judge Patricia E.
Campbell-Smith.
Decided: September 11, 2018
John S. Barth, Springvale, ME, pro se.
Jessica Cole, Commercial Litigation Branch, Civil

32

Division, United States Department of Justice, Washington, DC, for defendantappellee. Also represented by Robert Edward Kirschman, Jr., Loren Misha
Preheim,Chad A. Readier.
Before Newman, Linn, and Dyk, Circuit Judges.
PER CURIAM
John Barth (“Barth”) appeals from the dismissal of his amended complaint by
the Court of Federal Claims (“Claims Court”) for lack of subject matter jurisdiction.
Because the Claims Court did not err in reaching its decision, we affirm. We write
for the parties and therefore omit the factual and procedural background from this
opinion.
I
Count I of Barth’s amended complaint is directed to the United States and
alleges that a district judge in a prior suit involving Barth “refused to seal the case,
or to request federal discovery assistance, or to disqualify
himself to permit a judge with knowledge of internet
racketeering to handle the case, and published the unredacted documents on the
court and Pacer websites, thereby notifying the defendants [in that case] and
allowing them to destroy evidence and move assets out of the country and beyond
recovery.” Amended Complaint at 11. Barth sued the United States to recover
“damages due to incidental taking of private property without just compensation,
and denial of property without due process or equal protection of law.” Id.
The Claims Court dismissed that count by correctly recognizing that it has no
jurisdiction “to review the merits of a decision rendered by a federal district court,”
Shinnecock Indian Nation u. United States, 782 F.3d 1345, 1352 (Fed. Cir. 2015) or
“to entertain a taking[s] claim that requires the court to scrutinize the actions of
another tribunal,” Innovair Aviation Ltd., v. United States, 632 F.3d 1336, 1344
(Fed. Cir. 2011) (quoting Vereda Ltda. v. United States, 271 F.3d 1367, 1375 (Fed.
Cir. 2001)). In challenging the dismissal of Count I on appeal, Barth argues that the
Claims Court was wrong. He contends that the jurisdiction of the Claims Court is
“broader than that of other federal courts” and that “[n]o reason whatsoever was
produced [in the Claims court’s opinion], not even a poor argument, for denying
jurisdiction on any of the grounds asserted.” We disagree. The Claims Court’s
opinion was well-reasoned and is fully supported by the cases cited and relied upon.
Barth’s attempts to distinguish his case from Innovair based on differences in the
facts underlying the cases cited therein have no merit. His reliance on Boise
Cascade Corp. v. United States, 296 F.3d 1339 (Fed. Cir. 2002), which did not
address judicial actions similar to those alleged in Count I, also has no merit. Barth
also contends that Count I should not have been dismissed because Article III of the
United States Constitution gives courts in the United States, such as the Claims
Court, extensive authority. But Barth fails to appreciate that the Claims

33

Court is a court established under Article I and not Article III and that its
jurisdiction is statutorily limited under the Tucker Act. See 28 U.S.C. § 1491.
II
Counts II and III assert claims against various individuals and organizations
based on alleged violations of the Copyright Act and the Racketeering Influenced
and Corrupt Organization Act “and corresponding treaties and statutes of foreign
powers.” Amended Complaint at 13.
Barth contends that the jurisdiction of the Claims Court extends to
individuals and organizations in addition to the United States and that a claim
under the Tucker Act does not require money damages. Barth is wrong on both
points. Jurisdiction of the Claims Court is established by the Tucker Act, which
contains no provision extending jurisdiction of that court to any individual or
organization other than the United States—or to any claims other than for
liquidated or unliquidated damages. 28 U.S.C. § 1491(a)(1) (“The United States
Court of Federal Claims shall have jurisdiction to render judgment upon any claims
against the United States . . . for liquidated or unliquidated damages.”) (emphases
added); United States v. Sherwood, 312 U.S. 584, 588 (1941) (“[^Jurisdiction [of the
Claims Court] is confined to the rendition of money judgments in suits brought for
that relief against the United States.”).
Ill
The court has carefully considered Barth’s other
arguments and concludes they have no merit. 1
IV
For the foregoing reasons, the judgment of the Claims
court is affirmed.

Appendix D: Decision of Mass. District Court
Jurisdictional quibbling, ignoring that of the CFC.
Judge Richard G. Stearns: ELECTRONIC ORDER entered. ORDER DISMISSING
CASE.
John Barth, Jr., a resident of Maine, filed this case in the Massachusetts
. federal district court asserting violations of the copyright laws by an army of
internet entities which he alleges illegally "marketed" or "assisted... in the theft of
his book" The National Memorial. Barth also names the "United States" as a
defendant claiming that his private property was taken in violation of the Fifth

34

Amendment to the United States Constitution by the actions of [a United States]
District Judge [for the Central District of California] who refused, to seal [Barth's]
case... or to disqualify himself to permit a judge with knowledge of internet
racketeering to handle the case, and published the unredacted document on the
court and Pacer websites thereby notifying the defendants and allowing them to
destroy evidence and move assets out of the country and beyond recovery by
[Barth]." Compl. at 9. Barth makes no other claims involving the United States.
Pursuant to 28 U.S.C. § 1391, which "govern[s] the venue of all civil actions
brought in district courts of the United States[,]" a civil action may be brought in
"(1) a judicial district in which any defendant resides, if all defendants are residents
of the State in which the district is located; (2) a judicial district in which a
substantial part of the events or omissions giving rise to the claim occurred, or a
substantial part of property that is the subject of the action is situated; or (3) if
there is no district in which an action may otherwise be brought as provided in this
section, any judicial district in which any defendant is subject to the court's
personal jurisdiction with respect to such action." <Id. § 1391(b). No defendant
resides in Massachusetts, and no act of which the plaintiff complains transpired
here.
Consequently, this action is properly in Massachusetts only if there is no
other judicial district in which it could have been brought. While many of the
defendants are foreign entities, there are several corporate defendants, and some
individual defendants, located within the United States, although the Complaint
identifies none who are residents or have a place of business in Massachusetts.
The Complaint also names the United States as a party. Section 1391(e)(1)
states that "[a] civil action in which a defendant is an officer or employee of the
United States or any agency thereof acting in his official capacity or under color of
legal authority, or an agency of the United States, or the United States, may, except
as otherwise provided by law, be brought in any judicial district in which (A) a
defendant in the action resides, (B) a substantial part of the events or omissions
giving rise to the claim occurred, or a substantial part of property that is the subject
of the action is situated, or (C) the plaintiff resides if no real property is involved in
the action." 28 U.S.C. § 1391(e)(1). Again, venue is improper in Massachusetts in
that the "government" appears in the Complaint only in the person of a judge in the
Central District of California. As the governmental action transpired there, and
plaintiff in this non-res action resides in Maine, section 1391(e)(1) provides no
relief.
Because the defense of improper venue is "obvious from the face of the
complaint and no further factual record is required to be developed," this action will
be dismissed, without prejudice, to be refiled in an appropriate district. Trujillo v.
Williams, 465 F.3d 1210, 1217 (10th Cir. 2006); see also Cox v. Rushie, No. CA 1311308-PBS, 2013 WL 3197655, at *4 (D. Mass. June 18, 2013). As the court finds
35

that it lacks jurisdiction for want of venue, the court will not comment on the
doctrine of judicial immunity on which the governments motion to dismiss is based.
The Clerk will close the case and return Barths filing fee,
(Entered: 11/30/2018)

(Zierk, Marsha)

Appendix E: Mass. District Fails to Reconsider
Asserting numerous errors of fact and law
Judge Richard G. Stearns: ELECTRONIC ORDER entered GRANTING in part and
DENYING in part 16 Motion for Reconsideration.
(1) Plaintiff now states that despite the literal wording of his Complaint, his
intention is to name only the United States as a defendant. (2) The only
• wrongful acts attributed to the United States are those arising from the acts of
the California District Judge accused of aiding and abetting tortious interference
with plaintiffs intellectual property. (3) The accused Judge, as plaintiff now
acknowledges, enjoys absolute immunity as his alleged wrongful acts were
undertaken in his official capacity. (4) The law does not recognize a theory of
derivative liability under which the acts of an immune official can be attributed
to the United States except in those instances specified in the Westfall Act. (5)
Any waiver of sovereign immunity is narrowly construed. (6) There is no
plausible basis upon which the United States could be held to have waived its
sovereignty under the Westfall Act with a respect to a claim of tortious
interference with intellectual property. (7) The Tucker Act is irrelevant as
plaintiff has alleged no plausible contract, express or implied, with the United
States or the accused judge. (8) Because the Complaint as narrowed by plaintiff
in the motion to reconsider is utterly devoid of merit, reassignment to another
judge would be futile. (9) For the same reason, the Complaint is hereby
DISMISSED. (10) The court withdraws its instruction to the Clerk to refund to
plaintiff the filing fee. (Zierk, Marsha) (Entered: 12/06/2018)

Appendix F: Decision of First Circuit Court
Asserting errors of law but contradicting the COFC
United States Court of Appeals
For the First Circuit
No. 18-2243
JOHN BARTH, Plaintiff, Appellant,
v.

36

UNITED STATES, Defendant, Appellee.
Before Howard, Chief Judge,
Torruella and Barron, Circuit Judges.
JUDGMENT
Entered: August 7, 2019
Plaintiff-appellant John S. Barth appeals from the district court's dismissal
of his complaint pursuant to Fed.R.Civ.P. 12(b)(1) for lack of subject matter
jurisdiction. Defendant-appellee moves for summary disposition on the ground that
no substantial questions are presented by this appeal. See 1st Cir. R. 27.0(c).
Appellant moves for summary reversal. We summarily affirm the dismissal of the
complaint on the ground of sovereign immunity.
“It is beyond cavil that, as the sovereign, the United States is immune from
suit without its consent.” Muirhead v. Mecham, 427 F.3d 14, 17 (1st Cir.2005).
Barth's claims against the United States seek damages for alleged violation of his
federal constitutional rights stemming from actions of the federal judge who
presided over his copyright infringement case, Barth v. Playster Corp., et al., No.
17-cv-00274 (C.D. Cal. 2017). Barth's reliance upon the Tucker Act as the source of
the district court's jurisdiction is misplaced. The Court of Federal Claims, where
Barth initially filed suit, "has exclusive jurisdiction for constitutional claims against
the United States exceeding $10,000." Id. at 177.1
1 "The Little Tucker Act gives district courts 'original jurisdiction, concurrent with
the United States Court of Federal Claims,' for, inter alia, constitutional claims 'not
exceeding $10,000 in
Barth's complaint (which, he has explained, names only the United States as
a defendant) sought damages in excess of $4 million. The fact that the Court of
Federal Claims dismissed Barth's claims against the United States for lack of
jurisdiction on other grounds, See Barth v. United States, 137 Fed.Cl. 65 (2018),
affd, 737 Fed.Appx. 540 (Fed. Cir. 2018), does not entitle Barth to bring these
claims in a federal district court. See United States v. Tohono O'Odham Nation, 563
U.S. 307, 317 (2011).
We note as well that "the Tucker Act does not create any substantive right
enforceable against the United States for money damages, but merely confers
jurisdiction when such a right is conferred elsewhere." Adair v. United States, 497
F.3d 1244, 1250 (Fed. Cir. 2007). Barth's claims against the United States are
founded on the acts and omissions of a federal district judge acting within his
judicial capacity. “Few doctrines [are] more solidly established ... than the
immunity of judges from liability for acts committed within their judicial
jurisdiction." Pierson v. Ray, 386 U.S. 547, 553—54 (1967).
Appellee's motion for summary affirmance is granted. Appellant's motion for
summary reversal is denied. See 1st Cir. R. 27.0(c).
Maria R. Hamilton, Clerk
By the Court:

37

